      DEPARTMENT OF HEALTH AND HUMAN SERVICES                            Office of Inspector General


                                                                         Office of Audit Services, Region I
                                                                         John F. Kennedy Federal Building
                                                                         Room 2425
                                                                         Boston, MA 02203




TO:            Mary Wakefield, PhD, RN
               Administrator
               Health Resources and Services Administration


FROM:          /Michael J. Armstrong/
               Regional Inspector General for Audit Services


SUBJECT:       Community Health Center of Burlington, Inc., Generally Complied With Terms
               of the Recovery Act Grants and Federal Regulations (A-01-11-01501)


The attached final report provides the results of our review of Community Health Center of
Burlington, Inc.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George Nedder, Audit Manager, at (617) 565-3463 or through email at
George.Nedder@oig.hhs.gov. Please refer to report number A-01-11-01501 in all
correspondence.


Attachment

cc:

Sandy Seaton
Health Resources and Services Administration
Room 13C-24
Parklawn Building
5600 Fishers Lane
Rockville, MD 20857
  Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




  COMMUNITY HEALTH CENTER OF
  BURLINGTON, INC., GENERALLY
  COMPLIED WITH TERMS OF THE
RECOVERY ACT GRANTS AND FEDERAL
          REGULATIONS




                         Daniel R. Levinson
                          Inspector General

                           January 2012
                           A-01-11-01501
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   INTRODUCTION

BACKGROUND

Health Center Program

The Health Centers Consolidation Act of 1996 (P.L. No. 104–299) consolidated the
Health Center Program under Section 330 of the Public Health Service Act, codified at
42 U.S.C. § 254(b). Within the U.S. Department of Health and Human Services, the
Health Resources and Services Administration (HRSA) administers the Health Center
Program to provide comprehensive primary health care services to medically underserved
populations.

The Health Center Program provides grants to nonprofit private and public entities that
serve designated medically underserved populations and areas and vulnerable populations
composed of migrant and seasonal farm workers, the homeless, and residents of public
housing. Health centers are community-based and patient-directed organizations that
meet the “health center” definition under 42 U.S.C. § 254(b).

American Recovery and Reinvestment Act Grants

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery
Act), enacted February 17, 2009, HRSA received $2.5 billion, including $2 billion to
expand the Health Center Program to serve more patients, stimulate new jobs, and meet
the significant increase in demand for primary health care services among the Nation’s
uninsured and underserved.

HRSA made four types of grants available to health centers: (1) new access-points
grants, (2) grants to meet increased demand for services (IDS), (3) facilities investment
program (FIP) grants, and (4) capital improvement program (CIP) grants. HRSA
provided grants to new and existing health centers; some health centers received more
than one type of grant.

Requirements for Federal Grantees

Pursuant to 45 CFR § 74.21, grantees are required to maintain financial management
systems that contain written procedures for determining the reasonableness, allocability,
and allowability of costs. Grantees must maintain accounting records that are supported
by source documentation and financial systems that provide for accurate and complete
reporting of grant-related financial data. Grantees are also required to compare outlays
with budget amounts for each award and may use grant funds only for authorized
purposes.




                                             1
Community Health Center of Burlington, Inc.

Community Health Center of Burlington, Inc. (the Health Center), is a nonprofit
organization that provides health care to people of all ages, backgrounds, and life
circumstances. The Health Center offers comprehensive services, such as primary and
preventive health care, dental services, and mental health and substance abuse treatment.
The Health Center serves the communities of Burlington, Colchester, Essex Junction,
South Burlington, and Winooski, Vermont.

The Health Center is funded primarily through Medicare, Medicaid, Federal and State
grants, and third-party reimbursements. During Federal fiscal years (FY) 2009 and 2010,
HRSA awarded the Health Center three separate 2-year Recovery Act grants totaling
$11,960,033. The awards include the following:

   •    A FIP grant of $10,964,476 funded a new energy efficient and environmentally
        friendly health care facility to expand access to primary care and dental care for
        Vermont’s most densely populated and impoverished urban neighborhood. In
        addition, the FIP grant funding had contributed to the creation of approximately
        72 jobs during the quarter ended on June 2011. HRSA extended the project
        period through December 31, 2012.

   •    A CIP grant of $699,995 funded technology infrastructure improvements by
        upgrading support technology at all of the Health Center’s locations. Additional
        CIP funding was used to perform renovations at two of its locations. These
        renovations contributed to the creation of approximately one job. HRSA
        extended the project period through March 31, 2012.

   •    An IDS grant of $295,562 funded three jobs by the end of the grant period to
        enable the Health Center to provide additional services to approximately 7,300
        new patients.

The Health Center expects the construction of the new health care facility to be
completed by February 2012.

OBJECTIVE, SCOPE, AND METHODOLOGY

OBJECTIVE

Our objective was to determine whether the Health Center claimed costs that met the
terms of Recovery Act grants and applicable Federal requirements.

Scope

We reviewed Recovery Act grant expenditures totaling $7,584,778 that the Health Center
claimed for Federal reimbursement between August 4, 2009, and June 20, 2011. This
review is part of a series of reviews by the Office of Inspector General to provide

                                             2
oversight of Recovery Act. We did not perform an overall assessment of the Health
Center’s internal control structure. Rather, we reviewed only the internal controls that
pertained directly to our objectives.

We performed our fieldwork from August through October 2011 at the Health Center’s
administrative office in Colchester, Vermont.

Methodology

To accomplish our objectives, we:

   •   reviewed relevant Federal laws, regulations, and guidance;

   •   reviewed the Health Center’s HRSA grant applications and supporting
       documentation;

   •   reviewed the Health Center’s fiscal policies and procedures related to accounting
       documentation and preparation of financial reports;

   •   reviewed the Health Center’s audited financial statements and audits conducted
       pursuant to OMB Circular A-133 for FYs 2008 through 2010;

   •   reviewed the Health Center’s Recovery Act expenditures;

   •   interviewed the Health Center’s personnel to gain an understanding of the Health
       Center’s operations; and

   •   discussed findings with the Health Center’s officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.

                                RESULTS OF REVIEW

The Health Center generally claimed costs that met the terms of Recovery Act grants and
applicable Federal requirements. Accordingly, this report contains no recommendations.




                                             3
